                                                                                 Issue Date
                                                                                          January 26, 2012
                                                                                  
                                                                                 Audit Report Number
                                                                                              2012-CH-1001




TO:               Shawn Sweet, Director of Public Housing Hub, 5DPH

                  //signed//
FROM:             Kelly Anderson, Regional Inspector General for Audit, 5AGA

SUBJECT: The Gallia Metropolitan Housing Authority, Bidwell, OH, Did Not Always
           Administer Its Grant in Accordance with Recovery Act and HUD
           Requirements

                                               HIGHLIGHTS

    What We Audited and Why

                    We audited the Gallia Metropolitan Housing Authority’s American Recovery and
                    Reinvestment Act of 2009 Public Housing Capital Fund Stimulus (formula) grant.
                    The audit was part of the activities in our fiscal year 2011 annual audit plan. We
                    selected the Authority based upon our analysis of risk factors relating to the
                    housing agencies in Region V’s1 jurisdiction and a request by the U.S.
                    Department of Housing and Urban Development’s (HUD) Office of Public and
                    Indian Housing. Our objective was to determine whether the Authority
                    administered its grant in accordance with Recovery Act, HUD’s, and its
                    requirements.


    What We Found

                    The Authority did not administer its grant in accordance with Recovery Act,
                    HUD’s, and its requirements. Specifically, it (1) incorrectly stated in its
                    solicitations for appliances both the make and model number of the appliances
                    required instead of providing only a general description, (2) did not award a
                    contract for 5 ranges to the lowest bidder, (3) purchased 143 ranges and 142

1
    Region V includes the States of Indiana, Illinois, Ohio, Michigan, Minnesota, and Wisconsin.
           refrigerators when its plan stated that it would purchase 140 of each, (4) replaced
           13 refrigerators and 10 ranges that still had useful life, and (5) did not accurately
           report in FederalReporting.gov the number of jobs created and retained. The
           problems occurred because the Authority lacked adequate procedures and controls
           regarding the administration of its grant funds to ensure that expenditures and
           grant reporting met Recovery Act, HUD, and its requirements. As a result, it
           improperly used $11,397 in formula grant funds contrary to program
           requirements, and its reporting of Recovery Act-funded activities on
           FederalReporting.gov was inaccurate.

           We informed the Authority’s executive director and the Director of HUD’s
           Cleveland Office of Public Housing of minor deficiencies through a
           memorandum, dated January 5, 2012.

What We Recommend

           We recommend that the Director of HUD’s Cleveland Office of Public Housing
           require the Authority to (1) reimburse $11,397 from non-Federal funds to HUD
           for transmission to the U.S. Treasury for the inappropriate use of the funds cited
           in finding 1 and (2) implement adequate procedures to ensure that its procurement
           policies are followed.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-4.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.


Auditee’s Response

           We provided our review results to the Director of HUD’s Cleveland Office of
           Public Housing and the Authority’s executive director during the audit. We also
           provided our discussion draft audit report to the Authority’s executive director, its
           board chairman, and HUD’s staff during the audit. We held an exit conference
           with the Authority’s executive director on January 9, 2012.

           We asked the Authority’s executive director to provide comments on our
           discussion draft audit report by January 9, 2012. The Authority’s executive
           director provided written comments, dated January 9, 2012. The executive
           director generally disagreed with the report finding. The complete text of the
           auditee’s response, along with our evaluation of that response, can be found in
           appendix B of this report.




                                             2
                           TABLE OF CONTENTS

Background and Objective                                                           4

Results of Audit
      Finding 1: The Authority Did Not Always Administer Its Grant in Accordance
      With Federal and Its Requirements                                            5
Scope and Methodology                                                              10

Internal Controls                                                                  11

Appendixes
   A. Schedule of Questioned Costs                                                 13
   B. Auditee Comments and OIG’s Evaluation                                        14
   C. Federal and Authority Requirements                                           20




                                           3
                      BACKGROUND AND OBJECTIVE

The Gallia Metropolitan Housing Authority was established in 1974 under section 3735.27 of the
Ohio Revised Code. The Authority is governed by a seven-member board of commissioners with
two members each appointed by the Gallia County Commissioners, Gallia County Common
Pleas Court, and Gallipolis City Commissioners, and one member appointed by the Gallipolis
city manager. The board appoints the executive director. The executive director has general
supervision over the administration of the business and affairs of the Authority and is charged
with the management of the Authority’s housing programs and projects.

The Public Housing Capital Fund Stimulus (formula) Recovery Act Funded grant is administered
by the U.S. Department of Housing and Urban Development’s (HUD) Office of Public Housing.
The grant funds are available for capital and management activities, including development,
financing, and modernization of public housing projects.

On February 17, 2009, the President signed the American Recovery and Reinvestment Act. The
Recovery Act provided an additional $4 billion to public housing agencies to carry out capital and
management activities, including modernization and development of public housing. The Recovery
Act required that $3 billion of these funds be distributed as formula grants and the remaining $1
billion be distributed through a competitive process. In March 2009, the Authority received a
formula grant for $266,000.

The Recovery Act required public housing agencies to (1) obligate 100 percent of the funds
within 1 year of the date on which funds became available to the agency for obligation, (2)
expend 60 percent of the funds within 2 years, and (3) expend 100 percent of the funds within 3
years of the date on which funds became available to the agency. As of August 2010, the
Authority had obligated and expended 100 percent of its formula grant funds.

Our objective was to determine whether the Authority followed Federal and its requirements
regarding the administration of its Recovery Act Capital Fund grants. Specifically, we wanted to
determine whether the Authority properly procured contracts related to the above-mentioned
formula grant and appropriately used Federal funds for eligible expenditures.




                                                4
                                 RESULTS OF AUDIT

Finding 1: The Authority Did Not Always Administer Its Grant in
Accordance with Federal and Its Requirements
The Authority lacked adequate procedures and controls regarding the administration of its grant
funds to ensure that expenditures and grant reporting met Recovery Act, HUD’s, and its
requirements. Specifically, it (1) incorrectly stated in its solicitations for appliances both the
make and model number of the appliances required instead of providing only a general
description, (2) did not award a contract for 5 ranges to the lowest bidder, (3) purchased 143
ranges and 142 refrigerators when its plan stated that it would purchase 140 of each, (4) replaced
13 refrigerators and 10 ranges that still had useful life, and (5) did not accurately report in
FederalReporting.gov the number of jobs created and retained. The problems occurred because
the Authority lacked adequate procedures and controls regarding the administration of its grant
funds to ensure that expenditures met Recovery Act, HUD’s, and its requirements. As a result, it
improperly used $11,397 in formula grant funds contrary to program requirements and its
reporting of Recovery Act-funded activities on FederalReporting.gov was inaccurate.


 The Authority Did Not
 Administer Its Grant Correctly

               The Authority did not ensure that the contracts for refrigerators and ranges were
               awarded to a supplier that provided the best overall value to the Authority. Federal
               regulations state that all procurement transactions should be conducted in a manner
               providing full and open competition, and specifying a brand name product is
               considered to be restrictive of competition. The Authority’s procurement policy
               states that the Authority must provide for a procurement system that promotes
               competition in contracting and procures the most favorable prices available. The
               Authority stated in its solicitations for the appliances both the make and model
               number of the appliances required instead of providing a general description of the
               products needed. In its solicitation for refrigerators, it specified 135 units of a
               Hotpoint model number and 7 units of a General Electric model number. In its
               solicitation for ranges, it specified 135 units of a General Electric model number, 5
               units of another General Electric model number, and 2 units of a Hotpoint model
               number.

               The Authority’s executive director said he knew that the make and model numbers
               listed in the solicitation were the appliances that met the Authority’s specifications.
               However, he also knew that Federal procurement policy prohibited listing the
               specific make and model numbers in a solicitation. Therefore, after submitting the
               solicitation, he knew that he had made a mistake. HUD’s regulations at 24 CFR
               (Code of Federal Regulation) 85.36(c)(1)(vi) state that specifying only a brand name

                                                  5
          product instead of allowing an equal product to be offered is considered to be
          restrictive on competition. As a result of this restriction, HUD lacked assurance that
          the Authority effectively managed its grant.

          The Authority did not award the contract for five Americans with Disabilities Act
          (ADA)-compliant ranges to the lowest bidder. The Authority’s procurement policy
          states that it must provide for a procurement system of quality and integrity, which
          ensures that supplies and services are procured efficiently, effectively, and at the
          most favorable prices available. The Authority awarded the contract for 142 ranges
          to Sears Commercial One, the lowest bidder; however, it realized that the Sears
          Commercial One winning quote included specifications for five ADA-compliant
          ranges that were not self-cleaning, which did not meet ADA standards.


Formula Grant Funds Used to
Purchase Unnecessary
Appliances

          The Authority decided to purchase the five ranges from General Electric Company
          because it was already purchasing the refrigerators from the company and because
          Sears Commercial One could not meet General Electric Company’s price.

          However, the Authority did not go back to the original bids to determine which bid,
          excluding Sears Commercial One, was the lowest for the five ranges and it did not
          consider the bid from Menards. The executive director said it was an oversight that
          the Authority did not go back to the original bids to determine which bid, excluding
          Sears Commercial One, was the lowest bid and it should have. Menards’ bid, at
          $1,290, was the lowest bid and $1,247 lower than General Electric Company’s cost
          of $2,537. By not considering Menard’s bid, the Authority misused $1,247 of its
          formula grant funds when it failed to comply with Federal and its requirements.

          The Authority administers two public housing complexes that have a total of 140
          units: Gallia Metro Estates, which has 100 units, and Rio Grande Estates with 40
          units. One of the items it reported in its plan in FederalReporting.gov was that it
          would use Recovery Act funds to replace refrigerators and ranges in nearly all of its
          public housing units, on an as needed basis. The Authority also indicated that it
          planned to modernize administrative and community areas.

          The Authority was required to provide complete and accurate information in
          FederalReporting.gov. At a maximum, its plan would have permitted it to use
          formula grant funds for the purchase of a refrigerator and range for each of its public
          housing units, or 140 ranges and refrigerators. Contrary to its plan, the Authority
          used formula grant funds to purchase 143 ranges and 142 refrigerators. It replaced
          all 140 ranges and 140 refrigerators that were in its public housing units. However,
          10 of the ranges and 13 refrigerators were replaced before the end of their useful life
          and not in accordance with the Authority’s plan to replace appliances on an as

                                             6
needed basis. According to HUD’s Office of Public and Indian Housing Notice,
PIH-2009-16, with proper preventative maintenance and routine repairs of minor
components, refrigerators can be expected to perform for 6 to 10 years. The
National Association of Home Builders’ estimates the life spans of electric ranges
and refrigerators to be 14 to 17 years. Using HUD’s and the National Association of
Home Builders estimates, we determined that a reasonable estimate for the life span
of refrigerators and ranges was 8 years. While the Authority replaced the 13
refrigerators and 10 ranges contrary to its plan on FederalReporting,gov, it put the
appliances into its inventory for future use.

While the Authority’s plan stated that formula grant funds would be used to replace
ranges and refrigerators in nearly all of its 140 public housing units, it purchased a
range and refrigerator for its administrative office, which is also used as a
community room and lunchroom. It also purchased a refrigerator for its
maintenance shop. Rather than purchase the additional ranges and refrigerators with
stimulus grant funds, the Authority could have used a range and two refrigerators
that were already in its inventory for the Authority’s administrative office and
maintenance shop. Further, an additional ADA-compliant range was purchased to
replace a range for a handicap-accessible unit, which required a cook top and wall
oven. However, the Authority did not return the incorrectly purchased ADA-
compliant range for credit.

The Authority stated that the quantity of appliances purchased with formula grant
funds was more than accounted for on its Annual Statement/Performance and
Evaluation Report, form HUD-50075.1, submitted to HUD. On this report, it
estimated that it would purchase a total of 315 appliances, to include refrigerators,
ranges, and range hoods, which was 30 more appliances than it actually purchased.
The executive director said that these totals were only estimates and he did not know
how the quantity of 315 was arrived at. As justification for purchasing a range and
two refrigerators for the Authority’s administrative office and maintenance shop, he
said that the project description also included the modernization of administrative
and community areas. As a result of its actions, the Authority misused $1,863 ($855
for two refrigerators + $492 for two ranges + $516 for one ADA-compliant range) of
its formula grant funds when it failed to follow its plan for the use of formula grant
funds.

The 13 refrigerators replaced with formula grant funds were between 5 years, 7
months and 1 year, 5 months old. The 10 ranges replaced with formula grant funds
were between 3 years, 3 months and 7 months old. The Authority stated that the use
of formula grant funds for the purchase of these appliances was acceptable because
it did not actually replace these 23 appliances; instead, they were moved to its
inventory. The Authority stated that an inventory of additional appliances had
historically been maintained to prudently manage its public housing units.
Additionally, these appliances were purchased at a cost which was significantly
lower than if they had been purchased individually.



                                  7
             The expenditure of formula grant funds for the purchase of these 23 appliances was
             an ineligible expense because the Authority’s plan stated that the appliances would
             be replaced on an as needed basis and these 23 appliances did not need to be
             replaced since they still had useful life. If the Authority’s intention was to use
             formula grant funds to enhance its inventory of appliances, this intention could have
             been included in its plan. Since the Authority did not include this intention in its
             plan, it misused $8,287 ($5,557 for 13 refrigerators + $2,214 for 9 ranges + $516 for
             1 ADA-compliant range) of its formula grant funds when it failed to follow its plan
             regarding the use of the funds.

Inaccurate Information Was
Reported

             Contrary to Recovery Act reporting requirements, the Authority did not
             accurately report the number of jobs created and retained using its formula grant
             funds. Section 1512(c) of the Recovery Act requires recipients of Recovery Act
             funds to submit quarterly reports. These quarterly reports are submitted in
             FederalReporting.gov and become available to the public on the Recovery.gov
             Web site. Office of Management and Budget (OMB) Memorandum 10-08
             requires recipients of Recovery Act funds to submit estimates of jobs created and
             jobs retained for each project or activity in their recipient reports. The Recovery
             Act reports submitted by the Authority starting with the third quarter of 2009
             through the third quarter of 2010, its final report, stated that the total number of
             jobs created was two due to the retention of one full-time architect and one full-
             time administrative person.

             The Authority could not provide documentation to show how it determined the
             number of jobs created or that the number of jobs reported was correct. The
             Authority’s executive director stated that the Authority should have reported that
             zero jobs were created. The mistake was made because he did not fully
             understand the reporting requirements at the time he submitted the reports.

             The public did not have access to accurate information regarding the number of jobs
             created and retained with formula grant funds. As a result, the Authority’s use of
             formula grant funds was not transparent.

Conclusion


             The Authority did not administer its grant in accordance with Federal and its
             requirements. Specifically, it (1) incorrectly stated in its solicitations for
             appliances both the make and model number of the appliances required instead of
             providing only a general description, (2) did not award a contract for 5 ranges to
             the lowest bidder, (3) purchased 143 ranges and 142 refrigerators when its plan
             stated that it would purchase 140 of each, (4) replaced 13 refrigerators and 10
             ranges that still had useful life, and (5) did not accurately report in

                                               8
          FederalReporting.gov the number of jobs created and retained. The problems
          occurred because the Authority lacked adequate procedures and controls
          regarding the administration of its grant funds to ensure that expenditures met
          Recovery Act, HUD’s, and its requirements. As a result, it improperly used
          $11,397 in formula grant funds contrary to program requirements and its reporting
          of Recovery Act-funded activities on FederalReporting.gov was inaccurate.


Recommendations


          We recommend that the Director of HUD’s Cleveland Office of Public Housing
          require the Authority to

          1A. Reimburse $11,397 to HUD from non-Federal funds for transmission to the
              U.S. Treasury for the inappropriate use of the funds cited in this finding.

          1B. Implement adequate procedures and controls to ensure that its procurement
              policies are followed.




                                          9
                        SCOPE AND METHODOLOGY

To accomplish our objectives, we reviewed

       Applicable laws and regulations; HUD’s program requirements at 24 CFR Parts 50, 58,
        85, 135, and 968; HUD Office of Public and Indian Housing notices; HUD Handbook
        7460.8, REV-2; the Recovery Act, OMB Circular A-87 and Memorandum 10-08; and
        The Davis-Bacon Act, as amended (revised April 2009).

       The Authority’s accounting records, bank statements, contract files, policies and
        procedures, board meeting minutes for March 2009 through July 2011, organization
        chart, program annual contributions contracts with HUD, and 5-year annual plans.

       The Authority’s Recovery Act reports submitted to FederalReporting.gov and HUD’s
        Recovery Act Management and Performance System.

       HUD’s monitoring report for the Authority’s Recovery Act funds and projects, dated
        December 15, 2011, and the independent auditors’ reports on the Authority for fiscal
        years 2008, 2009, and 2010.

       HUD’s files for the Authority.

We also interviewed the Authority’s employees and HUD staff.

We reviewed the Authority’s $266,000 Recovery Act grant. We reviewed 100 percent of the
supporting hardcopy documentation, including bank statements and invoices, for all
expenditures.

We performed our onsite audit work at the Authority’s office at 381 Buck Ridge Road, Number
14, Bidwell, OH, between August 30 and October 27, 2011. The audit covered the period March
18, 2009, through August 31, 2011, but was expanded as determined necessary.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               10
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

                     Effectiveness and efficiency of operations – Policies and procedures that the
                      audited entity has implemented to provide reasonable assurance that a
                      program meets its objectives, while considering cost effectiveness and
                      efficiency.

                     Reliability of financial reporting – Policies and procedures that management
                      has implemented to provide reasonable assurance regarding the reliability of
                      financial reporting and the preparation of financial statements in accordance
                      with generally accepted accounting principles.

                     Compliance with applicable laws and regulations – Policies and procedures
                      that management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing its
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.


                                                 11
            We evaluated internal controls related to the audit objective in accordance with
            generally accepted government auditing standards. Our evaluation of internal
            controls was not designed to provide assurance on the effectiveness of the internal
            control structure as a whole. Accordingly, we do not express an opinion on the
            effectiveness of the Authority’s internal control.

Significant Deficiency

            Based on our review, we believe that the following item is a significant deficiency:

                  The Authority lacked adequate policies and procedures to ensure that (1)
                   contracts awarded provided the best overall value to the Authority, (2) it
                   followed its own plan, and (3) it accurately reported Recovery Act-funded
                   jobs in FederalReporting.gov (see finding).

Separate Communication of
Minor Deficiencies


            We informed the Authority’s executive director and the Director of HUD’s
            Cleveland Office of Public Housing of minor deficiencies through a memorandum,
            dated January 5, 2012.




                                             12
                                     APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS


                             Recommendation
                                 number              Ineligible 1/
                                   1A                  $11,397
                                  Total                $11,397


1/   Ineligible costs are those costs charged to a HUD-financed or HUD-insured program or
     activity that the auditor believes are not allowable by law; contract; or Federal, State, or
     local policies or regulations.




                                               13
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation                              Auditee Comments

               GALLIA METROPOLITAN HOUSING AUTHORITY DISCUSSION DRAFT AUDIT REPORT COMMENTS
                                               January 9, 2012

             The following comments respond to each of the five sections of Finding 1, as stated in the discussion
             draft audit report sent to Gallia Metropolitan Housing Authority on December 16, 2011.

                (1)   “[GMHA] incorrectly stated in its solicitations for appliances both the make and model
                      number of the appliances required instead of providing only a general description.”

                      Management Response:

                      Agree. It should also be noted, though, that GMHA did allow quotes on comparable products
                      for both types of appliances. In fact, the standard ranges purchased were a Kenmore model, not
                      the GE model named in the solicitation. Also, the 20” ranges purchased were an Estate model,
                      not the Hotpoint model named in the solicitation.

                      Nevertheless, stating makes and models in the solicitations was an oversight. Appropriate steps
                      will be taken to ensure that it does not happen again.

                (2) “[GMHA] did not award a contract for 5 ranges to the lowest bidder.”

                      Management Response:

                      Agree.

                (3) “[GMHA] purchased 143 ranges and 142 refrigerators when its plan stated that it would
                    purchase 140 of each.”

                      Management Response:

                      Disagree. The term “plan” is used in the discussion draft audit report to refer to the “Project
Comment 1             Description” field contained on the FederalReporting.gov form. GMHA did follow the plan
                      contained in the HUD-50075.1 form. As previously stated, the form HUD-50075.1 has not been
                      given appropriate weight in the OIG’s determination of GMHA’s plans for the Capital Fund
                      Recovery Grant. The HUD-50075.1 form includes the purchase of 315 appliances and is
                      approved by the HUD Field Office. Traditionally, it is the primary document for determining
                      what expenditures are allowable under a particular capital fund grant.

                      The discussion draft audit report states (emphasis added):

Comment 2                   “On [the form HUD-50075.1], [GMHA] listed a total of 315 appliances as having been
                            purchased, which was 30 more appliances than it actually purchased.”

Comment 1             The HUD-50075.1 that the OIG is referring to does not contain any statement of the number
                      of appliances purchased. It is a budget estimate. Because GMHA could not provide a detailed
                      breakdown of how the quantity of 315 appliances was reached, OIG has considered the
                      number to be nonsensical and has opted to use a different report. The budget states that the
                      315 appliances included ranges, range hoods, and refrigerators (range hoods were not
                      included in the final purchase). The quantity of appliances purchased by GMHA was approved
                      by the HUD Field Office on the HUD-50075.1.

                                                                                                           Page 14 of 5


                                                       14
Ref to OIG Evaluation                              Auditee Comments

               GALLIA METROPOLITAN HOUSING AUTHORITY DISCUSSION DRAFT AUDIT REPORT COMMENTS
                                               January 9, 2012

                 In response to the OIG comment that GMHA did not include the appliances for the
                 Administrative Offices or Maintenance Shops on Federalreporting.gov, two comments are
                 given. First, GMHA included the modernization of administrative and community areas on
                 Federalreporting.gov. Second, the clarity of the instructions pertaining to the “Project
                 Description” field on FederalReporting.gov should be questioned. Federalreporting.gov offers the
                 following description of the field in its instructions:

                    “Quarterly Activities/Project Description
                    Grants and Loans: Description of the overall purpose and expected results of the award
                    and first-tier sub award(s) including significant deliverables. If funding multiple projects
                    (block grants) this may be stated in broad terms.
                    Format: 2000 characters or less.”

                 As GMHA funded multiple projects with the ARRA funds, stating this information in broad
                 terms is acceptable. GMHA not only met the reporting requirement, but exceeded it. The
                 significant deliverables from the award are all included in the project description, mostly with
                  a relatively high level of detail (e.g., description of specific work items like “base trim” and
                 “shower fixtures”).

                 The GAO (GAO-10-966 http://www.gao.gov/new.items/d10966.pdf) conducted a study which
                 found HUD guidance on Recovery Act reporting to be broad and nonspecific. Guidance
                 instructed housing authorities to summarize projects and state them in broad terms.

                 Two excerpts from the study are provided below.

                 Excerpt 1 (from first page of Highlights):
                 The Recovery Act requires recipients to report specific information about funded projects and
                 activities, including the total amount of Recovery Act funds received, associated obligations
                  and expenditures, and a detailed list of the projects and activities funded. For each project or
                 activity, the detailed list must include its name, description, and completion status. To
                 facilitate implementation of the Recovery Act, OMB created governmentwide guidance,
                 including memorandums and a data dictionary. While some OMB guidance reiterates that
                 recipients list all projects and activities funded, its implementing instructions advise recipients
                 to summarize. OMB officials have stated that its broad guidance could not address unique
                 program characteristics effectively and anticipated that agencies would provide more specific
                 guidance. HUD issued limited program-specific guidance, which largely restated the
                 requirements in OMB’s data dictionary. The reporting guidance generally advised recipients to
                 summarize or use standard, suggested language. OMB and HUD guidance also did not
                 consistently clarify key terms, such as “project” or “primary place of performance.” Some
                 grant recipients followed OMB and HUD guidance, which instructed them to report broad,
                 summary information rather than information on specific projects and activities, as specified
                  in the act. Because the reporting guidance provided did not advise recipients to report details
                 for each project or activity funded or clarify key terms, recipients may have interpreted the
                 guidance differently.

                 Excerpt 2 (from first page of Highlights):

                                                                                                             Page 2 of 5




                                                      15
Ref to OIG Evaluation                             Auditee Comments

               GALLIA METROPOLITAN HOUSING AUTHORITY DISCUSSION DRAFT AUDIT REPORT COMMENTS
                                               January 9, 2012

                 The limited degree to which grant descriptions met the criteria on specific projects and activities
                 likely is partly due to reporting guidance that does not consistently reflect Recovery Act
                 requirements and does not provide clear instructions on what constitutes a “project” or how to
                 identify “primary place of performance.”

               (4) “[GMHA] replaced 13 refrigerators and 10 ranges that still had remaining useful life.”

                 Management Response:

                 Disagree.

                 This response addresses issues raised regarding first, the retainage of 23 appliances (13
                 refrigerators and 10 ranges) that were less than eight years old at the time of Gallia
                 Metropolitan Housing Authority’s (GMHA) ARRA-funded appliances purchase and second, the
                 ARRA-funded purchase of an ADA-accessible range that was not installed at the time of
                 purchase.

                 1. Retainage of 23 appliances (13 refrigerators and 10 ranges) that were less than eight years
                 old at the time of Gallia Metropolitan Housing Authority’s (GMHA) ARRA-funded
                 appliances purchase.

                 Prior to purchasing appliances with the ARRA grant, GMHA had an insufficient quantity of
                 both ranges and refrigerators. GMHA requires 141 ranges, 143 refrigerators, and 1
                 cooktop/wall oven combo to be installed at any given time at its Gallia Metro Estates (GME)
                 and Rio Grande Estates (RGE) properties (see Exhibit 1). However, the quantity of appliances
                 GMHA needs on hand for prudent management is greater than the quantity required to be
                 installed.

                  Exhibit 1: Installed Units Required at GME and RGE
                                                    Number of Installed Units Required at Location
                                                                         Cooktop/Wall
                  Location                               Ranges              Oven*           Refrigerators
                  Gallia Metro Estates (GME)              100                  1                  100
                  Units
                  Rio Grande Estates (RGE) Units           40                  0                   40
                  GHMA Administrative Office                1                  0                   1
                  Community Room/Lunchroom
                  GME Maintenance Shop                      0                  0                   1
                  RGE Maintenance Shop                      0                  0                   1
                  Total                                   141                  1                  143

                  *A cooktop and wall oven are counted as one unit, as they are the equivalent of a
                  single range unit

                 As demonstrated in Exhibit 2, prior to the ARRA appliance procurement, GMHA had only enough
                 of each type of appliance to meet the quantity required to be installed at GME and RGE.
                 Historically, an inventory of additional appliances has been maintained at GMHA to allow the
                 agency to prudently manage its public housing properties. Additional appliances
                                                                                                         Page 3 of 5




                                                      16
Ref to OIG Evaluation                             Auditee Comments

               GALLIA METROPOLITAN HOUSING AUTHORITY DISCUSSION DRAFT AUDIT REPORT COMMENTS
                                               January 9, 2012

                 ensure that GMHA has the ability to quickly and economically replace failed appliances and to
                 more quickly make vacant units available for leasing by new families during periods of high
                 turnover. Over time, this inventory of additional appliances has been depleted.

                 Replenishing this inventory as a part of the appliance procurement of the ARRA grant is fiscally
                 responsible and improves the efficiency of GMHA management. The units were purchased at
                 a cost which is significantly lower than what the agency would pay if it were to purchase them
                 individually.

Comment 3        HUD OIG has suggested that GMHA misspent ARRA funds because it replaced 13 refrigerators
                 and 10 ranges that were less than 8 years old and still functional. This theory is flawed for two
                 reasons. First, the assumption that each individual appliance is bound to a specific location
                 (e.g., Gallia Metro Estates Apt. 6) for the duration of its lifespan is incorrect. GMHA manages
                 its appliance inventory on an aggregated basis. Management examines the number of units
                 needed for installation and the number of units needed for inventory to determine the total
                 number of units needed on hand to operate GMHA properties. Second, GMHA did not
                 “replace” the 13 refrigerators and 10 ranges in question. The housing authority brought
                 its total number of appliances on hand up to a reasonable quantity by replacing both obsolete
                 appliances and the appliances that, over time, had been used from inventory but not
                 replaced.

                 Exhibit 2: Total on Hand at Gallia Metro Estates (GME) and Rio Grande Estates (RGE)
                                                                    Total Number on Hand
                                                                        Cooktop/Wall
                  Point in Time                           Ranges           Oven*         Refrigerators
                  Prior to ARRA (April 29, 2010)           141               1                 143
                  Present (Nov. 2, 2011)                   149               1                 154

                   *A cooktop and wall oven are counted as one unit, as they are the equivalent of a single range
                   unit

Comment 4        GMHA does not, by any means, have an excessive number of additional appliances on hand.
                 Beyond what appliances it requires to be installed (see Exhibit 1), the housing authority has 8
                 ranges and 11 refrigerators. GMHA’s rationale for maintaining this inventory is quite
                 reasonable.

                 GMHA’s maintenance department is small; if the only item keeping a vacant unit from being
                 rented is a refrigerator and a range that need several hours of heavy cleaning and/or repair—
                 and there are more urgent maintenance needs—placing appliances from inventory in the
                 vacant unit and getting it rented is good management. The dirty or broken appliance can be
                 attended to once higher priority work orders are completed.

                 Furthermore, an incident taking place on August 15, 2010 provides additional merit to the
                 value of having an appliance inventory. On August 15, a lightning strike occurred at Gallia
                 Metro Estates which disabled 12 refrigerators instantaneously. A circuit board in each of the
                 appliances was damaged. The parts needed to repair the refrigerator were not immediately
                 available. Having an inventory of refrigerators allowed GMHA to prevent the spoiling of

                                                                                                          Page 4 of 5




                                                     17
Ref to OIG Evaluation                             Auditee Comments

               GALLIA METROPOLITAN HOUSING AUTHORITY DISCUSSION DRAFT AUDIT REPORT COMMENTS
                                               January 9, 2012

                  tenants’ food, quickly respond to an emergency, and avoid a costly situation such as renting or
                  purchasing replacement refrigerators.

                  2. ARRA-funded purchase of an ADA-accessible range that was not installed at the time of
                  purchase.

Comment 3         HUD OIG has suggested that GMHA misspent ARRA funds because it purchased an ADA-
                  accessible range that was not installed in a unit. GMHA did order one ADA-accessible range in
                  excess of what it intended. The housing authority mistakenly purchased an ADA-accessible
                  range for a handicap-accessible unit which required a cooktop and wall oven. Upon discovery
Comment 5         of the error, the additional range was placed into GMHA inventory. The authority was still
                  below the quantity of units budgeted on its HUD-500751.1 form.

                  Although the purchase was the result of an administrative error, it should be noted that the
                  ADA-accessible range in GMHA’s inventory is the only one of its kind. If a range in the home of
                  one of our disabled residents was to become non-functional, the additional unit would allow
                  GMHA to quickly provide the tenant with a working unit that was procured at a cost much
                  lower than is available under individual purchase. Once again, the point must be made that
                  this is not an excessive or unreasonable inventory.

               (5) “[GMHA] did not accurately report in FederalReporting.gov the number of jobs created
                   and retained.”

                   Management Response:

                   Agree.


             The following comments respond to both recommendations contained in the discussion draft sent to
             Gallia Metropolitan Housing Authority on December 16, 2011.

                (1A) Reimburse $11,397 to HUD from non-Federal funds for transmission to the U.S. Treasury
                   for the inappropriate use of funds cited in this finding.

                     Management Response:

Comment 3            Disagree. GMHA should not be required to reimburse any funds related tosections 3 and 4 of
                     Finding 1. For reasons already discussed, these findings are inaccurate.

                (1B) Implement adequate procedures and controls to ensure that its procurement policies are
                   followed.

                    Management Response:

                    Agree.


                                                                                                          Page 5 of 5




                                                      18
                         OIG Evaluation of Auditee Comments

Comment 1   We agree that we did not give much weight to the Authority’s form HUD-50075.1
            because the information regarding the appliance purchases was unreliable. The
            form was not specific as to the number of specific appliances that were to be
            purchased. It did only list that the Authority estimated it would purchase 315
            appliances to include refrigerators, ranges, and range hoods. As required by
            Chapter 7.09 of generally accepted government auditing standards, we did review
            the Authority’s reporting to FederalReporting.gov and HUD’s Recovery Act
            Management and Performance System (RAMPS) as part of the scope of our audit
            (see page 10). In both of these reports, it stated that appliances would be replaced
            in nearly all of its 140 public housing units, on an as needed basis. Therefore, the
            Authority was only going to replace a maximum of 280 appliances, two
            appliances for each unit, less, as per stated to be replaced on an as needed basis,
            any appliance that had a remaining useful life.

Comment 2   The report was revised to reflect that the 315 appliances was only an estimate.

Comment 3   We disagree with the Authority’s rationale that it did not use Recovery Act funds
            to replace 13 refrigerators and 10 ranges that still had useful lives. The Authority
            acknowledges that it brought its total number of appliances on hand (inventory)
            up to a reasonable quantity. Regardless of whether or not it placed new or the 23
            used appliances in inventory, the Authority still used its Recovery Act funds
            purchase to increase its total number of appliances on hand at the same time
            removing appliances with remaining useful lives from service. HUD’s Notice
            PIH 2009-12 states that under section 9 of the 1937 Act, an authority no longer
            has the statutory authority to accumulate any Capital Fund grants in a replacement
            reserve. The Authority’s purchase of excess appliances served the same purpose
            as putting the equivalent amount of Recovery Act funds used to purchase the 23
            excess appliances in its replacement reserve for future use.

Comment 4   We do not dispute the Authority’s rationale for maintaining its appliance
            inventory, only the manner of how it established its inventory.

Comment 5   While the Authority maintains it was still below the quantity of units budgeted on
            its form HUD-50075.1, it was 23 appliances more than it needed to replace as the
            Authority reported to FederalReporting.gov and HUD’s Recovery Act
            Management and Performance System (RAMPS). Section 1512(c) of the
            Recovery Act required recipients of funds to comply with the transparency and
            accountability requirements of the Recovery Act. As previously stated, the
            Authority reported that it would replace appliances on an as needed basis.




                                             19
Appendix C

            FEDERAL AND AUTHORITY REQUIREMENTS
The Recovery Act, Section 1605, states that public housing agencies must obligate 100 percent
of the funds within 1 year of the date on which funds become available to the agency for
obligation, must expend at least 60 percent of funds within 2 years of the date on which funds
become available to the agency for obligation, and must expend 100 percent of the funds within
3 years of such date.

Section 1512(c) of the Recovery Act requires recipients of funds to comply with the transparency
and accountability requirements of the Recovery Act. Recipients of funds are required to make
quarterly reports3 on the Internet (FederalReporting.gov). that not later than 10 days after the end of
each calendar quarter, each recipient that received recovery funds from a Federal agency must
submit a report to that agency that contains a detailed list of all projects or activities for which
recovery funds were expended or obligated, including (1) the name of the project or activity; (2)
a description of the project or activity; (3) an evaluation of the completion status of the project or
activity; (4) an estimate of the number of jobs created and the number of jobs retained by the
project or activity.

OMB Memorandum 09-21, 4.2, states that the prime recipient of Recovery Act funds (1) owns
recipient data and sub-recipient data; (2) initiates appropriate data collection and reporting
procedures to ensure that Section 1512 reporting requirements are met in a timely and effective
manner; (3) implements internal control measures as appropriate to ensure accurate and complete
information; and (4) performs data quality reviews for material omissions or significant reporting
errors, making appropriate and timely corrections to prime recipient data and working with the
designated sub-recipient to address any data quality issues.

OMB Memorandum 10-08, part 2, 5.1, 2, requires recipients of Recovery Act funds to submit
estimates of jobs created and jobs retained for each project or activity in their recipient reports.

24 CFR 85.36(c) states that (1) all procurement transactions will be conducted in a manner
providing full and open competition. Some situations considered to be restrictive of competition
include but are not limited to (vi) specifying only a brand name product instead of allowing an
equal product to be offered and describing the performance of other relevant requirements of the
procurement.

Public and Indian Housing (PIH) Notice 2009-12 states that under section 9 of the 1937 Act,
public housing authorities no longer have the statutory authority to accumulate ANY Capital
Fund grants in a replacement reserve. In fiscal year 2008, no annual statements for this fiscal
year should have been approved with a budget that included a replacement reserve.

Section 110 of the Authority's consolidated annual contributions contract with HUD, dated
February 2, 1996, states the local authority must not award any construction or equipment
contract to other than the lowest responsible bidder.


                                                  20
The general provisions of the Authority’s procurement policy states that the Authority must (1)
provide for a procurement system of quality and integrity; (2) provide for the fair and equitable
treatment of all persons or firms involved in purchasing by the Authority; (3) ensure that supplies
and services (including construction) are procured efficiently, effectively, and at the most
favorable prices available to the Authority; (4) promote competition in contracting; (5) and
ensure that the Authority purchasing actions fully comply with applicable Federal standards,
HUD regulations, and State and local laws.




                                                21
